 Vermont’s One-Stop
 Readiness Under the
Workforce Investment Act




                 Report No.: 02-00-205-03-320
                 Date: February 8, 2000
                                              TABLE OF CONTENTS


                                                                                                                                 PAGE

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION


          BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

          OBJECTIVES AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


AUDIT RESULTS:

          1.         Opening Centers in Each Local Area . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

          2.         Providing Access to Services at the One-Stop Centers . . . . . . . . . . . . . . . . . . . . . 3

          3.         Including All WIA Required One-Stop Partners . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          4.         Establishing Agreements with Agencies Providing
                     WIA Required Partner Services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          5.         Developing a Financial System Able to Meet One-Stop
                     Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          6.         Developing a Data Collection System Able to Meet
                     One-Stop Needs Under WIA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


RECOMMENDATION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

APPENDIX:

          Vermont’s Response to Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
                        ACRONYMS



DET    Vermont Department of Employment and Training


ETA    Employment and Training Administration


HRIC   Human Resources Investment Council


INA    Indian and Native American


MSFW   Migrant and Seasonal Farmworkers


MOU    Memorandum of Understanding


UI     Unemployment Insurance


WIA    Workforce Investment Act




                                -i-
                                  EXECUTIVE SUMMARY


This report presents the results of the audit of Vermont’s One-Stop career center system. The audit
objective was to assess the status of Vermont’s One-Stop career center system relative to where it
needs to be to meet the Workforce Investment Act (WIA) requirements. This report provides the
reader with a snapshot as of October 7, 1999, of where Vermont stands in implementing WIA
requirements and actions to be taken by July 1, 2000.

WIA was passed in August 1998, to reform Federal job training programs and create a new,
comprehensive workforce investment system. The cornerstone of the new workforce investment
system is One-Stop service delivery, which unifies numerous training, education and employment
programs into a single, customer-friendly system in each local area. WIA requires that states complete
full implementation by July 1, 2000.


                                           Vermont met WIA requirements of having a One-Stop center
         AUDIT RESULTS
                                           located in each local area and providing accessible services at
                                           One-Stop centers. However, Vermont needs to continue its
efforts in the following areas to meet the requirements for a One-Stop career center system under WIA:

        !       include all required partner programs on the State Workforce Investment Board and in
                the One-Stop career center system;

        !       develop and execute comprehensive Memoranda of Understanding (MOUs) with
                program partners;

        !       allocate a fair share of One-Stop center costs to all program partners and other
                benefiting entities; and

        !       complete the expansion of the data collection system to include all data elements
                needed for performance reporting.

The Commissioner of the Vermont Department of Employment and Training (DET) responded to the
draft report on December 17, 1999. The Commissioner generally concurred with our findings and
recognized that changes need to be made to its existing systems to comply with WIA by July 1, 2000.
The response has been incorporated into the report with our comments, when appropriate, and
included in its entirety as an Appendix.




                                                  -1-
                                       INTRODUCTION



             BACKGROUND                   WIA was passed in August 1998 to reform Federal job
                                          training programs and create a new, comprehensive
                                          workforce investment system. The cornerstone of the new
workforce investment system is One-Stop service delivery, which unifies numerous training, education
and employment programs into a single, customer-friendly system in each community. WIA requires
that states complete full implementation by July 1, 2000. Interim final regulations, effective May 17,
1999, provided further direction on WIA requirements.

In 1997, Vermont was awarded a 3-year planning and implementation grant to establish a One-Stop
career center system. The grant, as modified, provided $3.5 million in funding. In March 1999,
Vermont submitted a plan for early WIA implementation. Vermont’s WIA plan included both state and
local sections because Vermont was a single state service delivery area under the Job Training
Partnership Act and the Governor designated Vermont as a single state local area for the purposes of
WIA Title I. The Employment and Training Administration (ETA) fully approved the state section of
Vermont’s WIA plan for 5 years but approved the local section on a transitional basis for 1 year. ETA
authorized Vermont to begin implementing WIA as of July 1, 1999.


                                          The audit objective was to assess the status of Vermont’s
   OBJECTIVES AND SCOPE
                                          One-Stop career center system relative to where it needs to
                                          be to meet WIA requirements by July 1, 2000. Sub-
objectives were to assess the status of Vermont’s One-Stop career center system in:

        1.   Opening centers in each local area.
        2.   Providing access to services at One-Stop centers.
        3.   Including all WIA required One-Stop partners.
        4.   Establishing agreements with agencies providing WIA required partner services.
        5.   Developing a financial system able to meet One-Stop needs under WIA.
        6.   Developing a data collection system able to meet One-Stop needs under WIA.

In performing this audit, we conducted interviews with officials from ETA, State and three One-Stop
career centers in the cities of Newport, Rutland and Springfield. We reviewed and analyzed One-Stop
partnership agreements, services for job seekers and employers, One-Stop plans and other documents
from various program sources. We did not assess One-Stop career center performance, customer
satisfaction, or customer choices. We did not review internal controls related to the One-Stop career
center system.




                                                 -2-
The audit was performed in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We conducted fieldwork from September 21, 1999 to
October 7, 1999. We held an exit conference with DET officials on November 23, 1999.




                                              -3-
                                       AUDIT RESULTS


1. Opening Centers in Each Local Area

WIA, Title I, Subtitle B, Chapter 5, Section 134(c)(2)(A) requires, at a minimum, that each of the
required programs, services, and activities be accessible at not less than one physical center in each
local area of the state. Vermont, as a single workforce investment area, needs only one physical One-
Stop center to meet the minimum requirements under WIA.

Vermont has exceeded WIA requirements by establishing 12 physical centers - 1 in each of the 12
labor market areas across the State. Vermont, in designing its One-Stop career center system, took
into consideration the labor market areas and the distances that individuals would have to travel to
receive services.


2. Providing Access to Services at the One-Stop Centers

The introduction to the Interim Final Rule (Federal Register, Volume 64, Number 72, dated
April 15, 1999, page 18668-9), states that One-Stop delivery systems should be user friendly and local
boards should coordinate with the broader community, including transportation agencies, to ensure the
centers are accessible to customers.

We toured three One-Stop centers and found them user friendly and accessible. The centers delivered
services through self and staff assisted service. Facilities were clean and well equipped with standard
and specialized equipment for hearing, mobility and visually impaired persons. General meeting and
training rooms were available. Staff work areas were well laid out and aisles were wide enough to
accommodate wheelchairs. Free parking, including designated handicap parking spaces, was available
at the centers.

There are various levels of public transportation services available in Vermont. Large cities, such as
Rutland, have frequent bus and van transportation available throughout the labor market area. Medium
cities, such as Springfield, have less service available with bus and van transportation operating on
limited routes and timetables. Small cities, such as Newport, have basically no public transportation
system. One-Stop centers have worked with transportation providers to improve service, but getting to
centers can still be a challenge for customers without personal means of transportation. In addressing
this challenge, the State has developed the “Patch” program where One-Stop staff visits customers in
the more rural areas and delivers One-Stop services, such as job referrals, resume writing, workshops
and other services which are generally offered at centers.




                                                 -4-
Resource areas were the central focus upon entering the One-Stop centers and were designed to
encourage public usage. Computers were user friendly, utilizing mouse driven programs (point and
click) and “home screen” links to occupation related Internet sites. The State job listing does not
contain full employer information, but additional information is available from the center’s receptionist or
staff. Staff is available to assist customers and demonstrate equipment usage.

Vermont fully implemented its Unemployment Insurance (UI) file-by-phone service on
September 7, 1999, moving the bulk of UI activity out of the local One-Stop centers and into a central
location. As a result, staff who previously specialized in UI claims, was reassigned other
responsibilities at centers. Staff focus shifted from intake and processing skills needed for the UI
program to the delivery of advanced client assessment and case management services needed for both
WIA Title I and Welfare-to-Work programs. Staff was encouraged to attend Career Development
Facilitators training, a curriculum developed by the National Occupational Information Coordinating
Committee. The training was designed to develop staff skills in the areas of assessment, case
management, labor market information, and employer services. Based on interviews with center
managers and staff, it appears the facilitator training was successful.


3. Including All WIA Required One-Stop Partners

WIA, Title I, Subtitle B, Chapter 3, Section 121(b)(1)(B) requires as partners those employment,
training, and education entities that carry out specific programs and activities. WIA requires that
program partners, including the Migrant and Seasonal Farmworkers (MSFW), and Indian and Native
American (INA) programs, be represented on the Workforce Investment Boards and be accessible
through the One-Stop Career centers.

Vermont’s Workforce Investment Board does not meet WIA requirements. On May 19, 1999, the
Vermont State Legislature passed a law establishing the Human Resources Investment Council (HRIC)
as the State Workforce Investment Board and reconstituting the board membership to include most, but
not all, of the WIA required partner programs. MSFW and INA programs are not permanent
members of the HRIC under Vermont law. We reviewed board membership as of September 21,
1999, and noted:

        ! The community-based organization which operates the MSFW programs is currently on the
          board but is classified as a “business” member. Business members are appointed for terms
          of 3 years while legislated appointees have permanent places on the HRIC.

        ! INA programs are not represented on the HRIC in any capacity.

Also, Vermont’s One-Stop career center system does not include the INA grantee which is a required
program partner under WIA. Specifically, INA programs operated by the Abenaki Self-Help
Association, Inc., was not accessible through the State’s One-Stop career center system.

                                                   -5-
In its response, Vermont stated:

       The HRIC (Vermont’s State WIB) is conferring with the Governor about changing the
       designation of the representative of the MSFW program to make his seat part of the
       permanent “partner” membership. . . . We will endeavor to redesignate the seat in
       question by late January 2000.

       The HRIC is sensitive to the economic well being of all Vermont citizens and is committed
       to finding a solution that will assure that the interests of Native Americans are fully
       addressed. The HRIC has established regional Workforce Investment Boards (WIBs),
       which are extensions of the Council, and which have responsibility for identifying needs
       at the local level. They influence the use of a wide range of education and training
       resources including federal, state and local funds. We would suggest that representation
       by the Native American Program, Abenaki Self Help, be part of the Franklin Grand Isle
       County WIB, one of the most active and effective in the state, and which serves the
       region in which the identified Native American program, Abenaki Self Help, is located.
       We believe that board representation is close proximity to the program in question would
       be the most effective means to assure that the needs of this population are served.

       We are prepared to immediately enter into discussions with the Chair of this regional
       WIB to arrange for a seat for a representative of the Abenaki Self Help organization, and
       we believe that this would be a practical and effective resolution to this concern. In
       addition, the HRIC would be available to meet with the Abenaki Self Help administrators
       at any time to discuss their workforce education and training needs and to coordinate the
       services of Abenaki Self Help with other program providers through the One Stop Career
       Center System. Additionally, an MOU would be developed to reflect this effort.

While Vermont plans to take constructive steps regarding MSFW representation on the HRIC and the
inclusion of INA programs into the One-Stop career center system, the INA grantee should be a
permanent member of the HRIC for Vermont to be fully WIA compliant.


4. Establishing Agreements with Agencies Providing WIA Required Partner Services

WIA, Title I, Subtitle B, Chapter 3, Section 121(c)(2)(A) states that each MOU contains provisions
describing:

      (i) the services to be provided through the one-stop delivery system;

       (ii) how the costs of such services and the operating costs of the system will be funded;




                                                -6-
        (iii) methods for referral of individuals between the one-stop operator and the one-stop
        partners, for the appropriate services and activities; and

        (iv) the duration of the memorandum and the procedures for amending the
        memorandum during the term of the memorandum. . . .

Vermont’s partnership agreements do not fulfill the requirements of an MOU under WIA. The
agreements provide some general guidance as to the type of services the program partners provide.
However, the agreements do not indicate:

        ! which core services, such as job search assistance and placement, partners will provide;

        ! what other services, such as intensive assessment or training, partners will provide;

        ! methods of referring individuals between Vermont’s DET which operates the One-Stop
          centers, and the partners; and

        ! partner commitments of funding and staff to the One-Stop career center system.

In its response, Vermont stated:

        At the request of the Department of Labor, ETA, which identified the same concerns, we
        have begun the process of revising our MOU’s to address the three issues you have
        raised. We anticipate the date of completion of the revised MOU to be January 31, 2000.


5. Developing a Financial System Able to Meet One-Stop Needs Under WIA

WIA, Subtitle E, Section 184(a)(1) requires each state establish fiscal controls and fund accounting
procedures. 20 CFR 662.270 provides further direction, stating:

        . . . Each partner must contribute a fair share of the operating costs of the One-Stop
        delivery system proportionate to the use of the system by individuals attributable to the
        partner’s program. . . . Some of these (allocation) methodologies include allocations
        based on direct charges, cost pooling, indirect cost rates and activity-based cost
        allocation plans. . . .

While DET, the administrator for the State’s One-Stop career center system, has an accounting system
which is adequate for capturing center costs in aggregate, Vermont’s One-Stop career center system
has not developed a financial management system which fully meets WIA needs. DET’s policy is to
charge partners which have a full-time presence at the centers, a proportionate share of the facility



                                                  -7-
costs. However, DET needs to consider charging part-time partners and other entities that consume
center resources for their proportionate share of costs.

In its response, Vermont stated:

        Vermont will determine the amount of and consider charging partners with a part-time
        presence for their proportionate share of the facility cost. However, when the
        proportionate share is immaterial or less than the value of services contributed to the
        one-stop center no charge will be made. The decision to charge or not will be made on a
        partner by partner basis and will be incorporated into the Memorandum of
        Understanding with that partner.

        Vermont currently does charge several entities which consume center resources even
        though they are not physically present in the center. Resources consumed are typically
        personnel costs; cost reimbursement agreements for those activities above and beyond
        Wagner Peyser and WIA core services are negotiated. Each new request will be
        considered and agreements will be negotiated unless associated costs are deemed to be
        immaterial.


6. Developing a Data Collection System Able to Meet One-Stop Needs Under WIA

WIA, Title I, Subtitle B, Chapter 6, Section 136(d)(2) requires that a One-Stop data collection system
be able to collect and report certain data elements for all customers who receive more than self-service
and informational services.

Vermont has not expanded its data collection system to include all data elements needed for WIA
required reports. Vermont’s One-Stop data system was originally developed for the Job Training
Partnership Act and was expanded to accommodate the Employment Service, Unemployment
Insurance and Welfare-to-Work programs. The system tracks the full range of core, intensive, and
training services received by customers. Based on our limited testing, the data collection system was
effectively merged into the One-Stop career center environment. All activity related to services
received by customers was recorded. However, the data collection and reporting system needs to be
upgraded to report on WIA required performance measures, such as retention in unsubsidized
employment after 12 months, return on investment linking the cost of workforce investment activities
with outcomes, and training effectiveness.

In its response, Vermont stated:

        Vermont has actively participated in a series of performance accountability meetings
        involving ETA, the early implementation states and others. The purpose of this process
        was to identify and develop recommendations on key issues associated with WIA record

                                                  -8-
       keeping and reporting and to define the technical specifications to be used. We are
       expecting ETA to issue the resulting guidance for interim WIA reporting in early January.
       Final modifications to our data collection and reporting systems will be undertaken when
       that guidance is received.

       The use of wage record data is an area of particular concern under WIA. Vermont has
       no problem matching its participants to Vermont wage record data to determine such
       things as earnings, wage gains and retention. We have already done this several times as
       part of the process mentioned above. Concerns arise when individuals find employment
       outside of Vermont’s boundaries after being serviced under Vermont’s WIA. We
       anticipate that the bulk of “other state” employment will occur in New Hampshire, New
       York, and Massachusetts. Officials in the other states will be contacted to determine the
       feasibility of reciprocal access to each others wage record data for purposes of WIA
       performance accountability. Vermont has already agreed to participate in the Wage
       Record Interchange System which should help over the longer term.




                                  RECOMMENDATION


We recommend that the Assistant Secretary for Employment and Training ensure that Vermont
continues its efforts to implement WIA requirements. By July 1, 2000, Vermont needs to:

       1.      Include all WIA required One-Stop partners by ensuring that:

               --     the HRIC clearly identifies entities as “partners” that are required partners
                      under WIA instead of placing them under another category such as “business;”
                      and

               --     INA programs are represented on the HRIC and linked into the One-Stop
                      career center system.

       2.      Develop and execute comprehensive MOUs with each program partner by including
               provisions covering:

               --     services to be provided,
               --     the funding of services and operating costs, and
               --     methods for referring individuals between DET and partners.




                                               -9-
3.   Allocate a fair share of One-Stop career center costs to all program partners and other
     benefitting entities.

4.   Complete the expansion of the data collection system to include all data elements
     needed for WIA performance reporting.




                                     -10-
